CERTIFICATE OF SERVICE
NO. TBD
Teresa Ann Waters
Petitioner(s)
v.
Texas Attorney General, Et Al.
Respondents)

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Teresa
Ann Waters Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Meagan T. Scott
Harris County Dist. Atty. Office
500 Jefferson Street, Suite 600
Houston, TX 77002
(713) 274-5816
scott_meagan@dao.hctx.net
Counselfor Texas Attorney General,
Harris County District Attorney's Office

Seth Byron Dennis
Office of the Attorney General
Capitol Station
P.O. Box 12548
Austin, TX 78711-2548
(512) 463-2080
seth.dennis@oag.texas.gov
Counselfor Texas Department ofPublic Safety,
Texas Department of State Health Services, John
Hellerstedt, Steve Mccraw, Kim Ogg, Ken Paxton

Lucas *DeDeus

February 13, 2020
SCP Tracking: Ann Waters-2318 Autumn Springs Lane-Cover White

